                              CLOSEOUT OF CASE M-99060031




         This case was initiated after a program manager (PM)' spoke with us about an
ongoing dispute among the researchers associated with a recently withdrawn proposal.2
The PM explained that after receiving some criticism from the PM about the proposal,
the PI decided to withdraw the proposal and he told the PM that he intended to resubmit
it after addressing the weak areas of the proposal. Soon thereafter, a dispute arose
between the subcontractor who prepared the portion of the proposal that was criticized as
weak and the PI. The proposal was not resubmitted. One of the researchers associated
with the withdrawn proposal called our office asking us to investigate potential
misconduct by the subcontractor, alleging that the subcontractor had been unethical and
had retaliated against the PI because of the PI'S recommended changes to the proposal.
The researcher contended that the subcontractor tried to have the PI fired and made
public statements about the security risks associated with the PI.

        We considered the allegations and determined that the issues in the context in
which they were raised are not appropriate for OIG to address. Disputes that occur
between researchers concerning the development or revisions to a proposal are private
matters. Program staff can work, as appropriate, to encourage collaboration to improve
the quality of a proposal. With regard to the alleged false statements made by the
subcontractor, none were submitted or made directly to NSF, therefore are also outside of
our jurisdiction.

           Therefore, .this case is closed, and no further action will be taken.


cc: Integrity, IG




Closeout                                     Page 1 of 1
